IN THE SUPREME COURT OF THE UNITED STATES
No. 19-224
BRYAN JAMES STROTHER, SFC.,
California Army National Guard,
Petitioner,
v.
DAVID S. BALDWIN, Adjutant General,
State of California Army National Guard;
MIKE MCCORD, Pentagon Comptroller;
DEFENSE FINANCE AND ACCOUNTING SERVICES;
United States Department of Defense,
Respondent.
CERTIFICATE OF SERVICE
I, Daniel C. Willman, counsel for Petitioner Bryan James Strother, hereby
certify per S.Ct. Rule 29 (4) that on December 4, 2019, I served three (3) copies of
Petitioners’ Reply Brief in support of Petition for a Writ of Certiorari (dated December
6, 2019), Rule 33(g) Certificate of Compliance and Proof of service, upon the address
below of the Office of the Solicitor General of the United States via The United States
post office priority mail: Tracking No. 9505 5104 3501 9338 2065 26 (40 copies were
sent to The U.S. Supreme Court using the same method Tracking No 9505 5104 3501
9338 2065 19). I further certify that all parties required to be served have been served.
Solicitor General of the United States,
Room 5616, Department of Justice,
950 Pennsylvania Ave., N. W.,
Washington, Dc 20530-0001.

Dated: December 6, 2019

S/Daniel C. Willman
Daniel C. Willman
Counsel for Petitioner
P.O. 606
Pinckney, MI 49169
248-231-0705
danielcwillman@aol.com

